APPENDIX

FILED

NOTICE
This order was filed under Supreme
Court Rule 23 and may not be cited
as precedent by any party except in
the limited circumstances allowed
under Rule 23(e)(1).

2019 IL App (4th) 170546-U
NO. 4-17-0546

November 12, 2019
Carla Bender
th
4 District Appellate
Court, IL

IN THE APPELLATE COURT
OF ILLINOIS
FOURTH DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
JOSIAH DANIEL PORTER,
Defendant-Appellant.

)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
McLean County
No. 15CF103
Honorable
Robert L. Freitag,
Judge Presiding.

JUSTICE DeARMOND delivered the judgment of the court.
Presiding Justice Holder White and Justice Steigmann concurred in the judgment.
ORDER
¶1

Held: The appellate court affirmed, finding there was no ineffective assistance of counsel,
the trial court did not err in denying defendant’s motion to withdraw his guilty plea,
and it did not err in sentencing defendant to seven years on each count of criminal
sexual assault to be served consecutively.

¶2

On July 15, 2016, defendant pleaded guilty to two counts of criminal

sexual assault. The trial court sentenced him to seven years in prison for each count to be served
consecutively. Defendant filed a motion to reconsider the sentence, which was denied. Defendant
then filed a motion to withdraw his guilty plea, which was denied.
¶3

On appeal, defendant argues the trial court erred in denying his motion to

withdraw because his attorney was ineffective and he had “a defense worthy of consideration.”
Defendant alternatively argues the seven-year sentences for each count were excessive. We
affirm.

1a

¶4
¶5

I. BACKGROUND
On February 4, 2015, a grand jury indicted defendant on two counts of criminal

sexual assault (counts I and II) (720 ILCS 5/11-1.20(a)(1) (West 2014), alleging he committed
“an act of sexual penetration between his penis and the vagina of P.H. by the use of or threat of
force, and committed an act of sexual penetration between his penis and the mouth of P.H. by the
use of or threat of force.” The State alleged these offenses occurred on or about January 25,
2015.
¶6

On July 15, 2016, defendant agreed to enter a blind plea of guilty to counts I and

II. The trial court admonished defendant that both counts were non-probationable, informed him
of the minimum and maximum term of sentence for each count, and informed him of the
mandatory supervised release term of three years up to natural life. Additionally, the court told
defendant he would be required to serve 85% of the sentence imposed for each count, both
counts must be served consecutively, and defendant would be required to register as a sex
offender for the rest of his life. When asked if he understood each admonishment, defendant
answered in the affirmative. In response to whether defendant had any questions about the
admonishments or his trial rights, he said, “No.” When asked if anybody forced, threatened, or
coerced defendant to make him plead guilty, defendant said, “No, your Honor.” The court also
asked if anyone, including his lawyer, promised him anything about what was going to happen in
his case to try to get defendant to plead guilty. Defendant responded, “No, your Honor.” The
State presented a factual basis as follows:
“This defendant has two codefendants. The victim in this case,
P.H., was with her friend, M.R. They went back to M.R’s
boyfriend’s apartment. When they got back to the apartment, the
-22a

three suspects, this defendant and his two codefendants, began to
follow P.H. around. P.H. told them to leave her alone, and they
refused. The three suspects then took her into one of the suspect’s
bedrooms and took turns having vaginal intercourse with her while
holding her down and not allowing her to get up. According to
P.H., they also were forcing her to perform oral sex on the three of
them. This defendant, Mr. Porter, was interviewed, and he admits
that his penis might have touched her lips. He further indicated that
he did, in fact, put his penis in the victim’s vagina and later said
that the victim, also, quote, “sucked his penis,” unquote. Porter
said that all of the suspects were standing around “her,” the victim,
P.H., taking turns having sex with her.”
After the factual basis was recited, the trial court inquired of defendant as follows:
THE COURT: “Mr. Porter, now that you and I have gone over the charges in this
case, we have gone over the penalties that could be imposed, we have talked
about all those trial rights you have that you give up by pleading guilty,
understanding all of that now, sir, how do you plead to these two charges of
criminal sexual assault? Do you plead guilty or not guilty?
DEFENDANT: Guilty, your Honor.”
The court found defendant’s guilty plea to be knowing and voluntary.
¶7

At the sentencing hearing, the State corrected the presentence report to reflect

defendant was sentenced to two years in the Illinois Department of Corrections earlier the same
morning for manufacture/delivery of cannabis in case number 15-CF-184. The State also

-33a

presented aggravation in the form of two victim impact statements, one from the victim and the
other from her mother. Reading from her statement at the sentencing hearing, the victim
provided a detailed explanation of how the sexual assault impacted her life and told the court
how the sexual assault continues to negatively affect her. The victim’s mother also read her
statement aloud and gave a detailed account of how the sexual assault affected her daughter, the
family, and how her daughter’s assault continues to have a lasting and detrimental impact on the
family. Defendant presented a mitigation packet consisting of a number of letters from
defendant, his parents, and others. Defendant also gave a statement in allocution. The State
recommended a sentence of seven years on each count, while defendant’s counsel argued for
four years on each count.
¶8

The court indicated it considered the information in the presentence investigation

report, all of the evidence presented at the hearing, the recommendations of counsel, defendant’s
statement in allocution, and all the relevant statutory factors in aggravation and mitigation in this
case. The court also noted defendant’s criminal record was not significant. The court identified
defendant’s recent cannabis felony, for which he was sentenced earlier that morning, as an
aggravating factor appropriate for the court to consider, but commented it was not as significant
as in some other cases. When considering the mitigation presented on behalf of defendant, the
court considered defendant’s willingness to plead guilty and accept responsibility, the relevant
statutory factors in mitigation, and the mitigation packet submitted by defendant. The court
stated the following during the sentencing hearing:
“Of all of the crimes that can be committed, in my view, this type
of crime, a sexual assault of any kind, is about the most selfish act
that any human being can make. Because you made a choice to do

-44a

something for yourself with a total disregard for how it was going
to affect all the people in this room. This is tragic ***. Everyone
has been affected by your choice that night. And in my view it was
just an absolutely selfish and unjustifiable choice that you made
that night. I think it’s with that in mind that the court is going to
impose a sentence in this case that reflects the seriousness of your
crime, but also reflects the mitigation that’s been presented here
today. And the record is not going to show this, but after you
finished your statement there was a bit of a pause. The court didn’t
immediately begin my comments. That’s because as I told you at
the beginning, I was considering very strongly what is appropriate
here. And I will tell you that the court believes that this offense
was of such a serious nature and had such a lasting impact that a
sentence frankly even in excess of what’s been recommended here
would probably be appropriate in this case, and I think would be
justified in this case, and would be upheld on appeal in this case.
But because of the mitigation that’s been presented I am going to
essentially temper what I think would probably be the appropriate
sentence. I’m going to sentence you in accordance with what the
State has recommended. You will be sentenced on each count to a
term of seven years in the Illinois Department of Corrections.”
¶9

On May 31, 2017, the court heard evidence on defendant’s motion to withdraw

his guilty plea, which was filed on March 27, 2017. Defendant argued his attorney at the time of

-55a

his guilty plea was ineffective and he should be allowed to withdraw his guilty plea in light of
the victim’s subsequent testimony during the trial of one of the codefendants. Defendant argued
the victim’s testimony differed from statements provided in discovery and the State’s factual
basis recited during the plea, and, therefore, constituted new evidence. Defendant provided an
affidavit from the attorney who represented him during the plea. The affidavit alleged a
difference between the plea offer tendered on the day of the plea and the attorney’s
understanding of what the plea was supposed to be, based on previous conversations with the
assistant state’s attorney (ASA) handling the case. According to defendant’s counsel, he
informed defendant the plea was an open or “blind” plea to one count of criminal sexual assault,
only to discover, when they arrived at the courthouse and began reviewing the paperwork for the
plea, it was to be an open plea to both counts of criminal sexual assault. Further, the attorney’s
affidavit said while informing defendant of this new plea, the affiant failed to inform defendant
that a guilty plea would result in a mandatory lifetime sex offender registration, and a mandatory
supervised release period of three years to natural life. In his brief, defendant concedes the trial
court provided him with proper admonishments pursuant to Illinois Supreme Court Rule 402
(eff. July 1, 2012) before accepting the plea. However, defendant contends he would not have
entered into a plea of guilty if his prior attorney accurately informed him of the correct plea deal
further in advance. Defendant alleges that he traveled to a courtroom far from home under the
mistaken belief he would be entering a blind plea to one count of criminal sexual abuse, only to
be confronted with a plea agreement different from the one previously communicated to him by
his attorney. Defendant contends one of the codefendants received, via a negotiated plea, a fouryear sentence on a reduced charge, making defendant’s sentence excessive in comparison.
Defendant also argues, because one of the codefendants was found not guilty at a jury trial

-66a

subsequent to defendant’s guilty plea, the testimony of the victim during that trial was new
information, as it allegedly differed from the State’s factual basis and previous statements
provided to defendant in discovery.
¶ 10

The State argued the codefendant’s trial focused on the guilt or innocence of the

codefendant, not this defendant, and therefore the entire presentation of the case was different
than it would have been for this defendant. Different questions would have been asked, and
different evidence would have been presented, including the inculpatory admissions of the
defendant and the deoxyribonucleic acid (DNA) evidence. The State argued the four-year
sentence of the other codefendant involved a different victim, was factually dissimilar to the
present case, and was irrelevant when considering sentencing factors for this defendant. The
State also noted all the evidence admitted by the State during the trial of the codefendant was
previously provided to this defendant in discovery, well before he entered his guilty plea. The
only allegedly new evidence was the trial testimony of the victim. Additionally, the State
presented evidence, by way of an affidavit from the ASA handling the case and an e-mail
between the parties, indicating no offer was tendered to the defense which included a plea to one
count of criminal sexual abuse at all, and the only offer conveyed had been for a plea to one
count of criminal sexual assault for a specific term of six years in the Illinois Department of
Corrections. The trial court took the defendant’s motion to withdraw guilty plea under
advisement until July 26, 2017.
¶ 11

On July 26, 2017, as part of its ruling on defendant’s motion to withdraw his

guilty plea, the trial court stated it reviewed all the exhibits, transcripts, and other evidence
before rendering its decision. The court stated the record was clear defendant was informed by
the court of the following: his plea included both counts of the offense, defendant acknowledged

-77a

he was entering into a plea for both counts, and he was properly admonished regarding the
penalties, sex offender registration requirement, and mandatory supervised release period.
Additionally, the court found it complied with Rule 402 (Ill. S. Ct. R. 315 (eff. July 1, 2012)),
and any trial testimony of the victim regarding the codefendant was a subsequent matter that had
no bearing on the State’s factual basis recited during defendant’s plea. The trial court denied
defendant’s motion to withdraw his guilty plea and then heard arguments on defendant’s motion
to reconsider the court’s sentence.
¶ 12

After listening to arguments from both parties, the trial court said it read

defendant’s motion and viewed the exhibits. The court then proceeded to discuss each of the
issues raised by defense counsel before denying defendant’s motion for reconsideration. With
regard to the disparity-of-sentencing argument, the court considered a sentence imposed on a
codefendant pursuant to a plea and a codefendant’s jury verdict to have little relevance to this
defendant’s sentence. The court reiterated that it considered all relevant factors in aggravation
and mitigation, all relevant evidence presented at the time of sentencing, and defendant’s presentence investigation report before imposing a sentence.
¶ 13

This appeal followed.

¶ 14

II. ANALYSIS

¶ 15

A. Withdrawal of Guilty Plea

¶ 16

“A defendant has no absolute right to withdraw a plea of guilty.” People v.

Beasley, 2017 IL App (4th) 150291, ¶ 32, 85 N.E.3d 568. Rather, in order to withdraw his plea, a
defendant must establish a recognized basis for such withdrawal. People v. Wilson, 295 Ill. App.
3d 228, 236, 692 N.E.2d 422, 428 (1998). “The defendant bears the burden of showing the
necessity for withdrawal.” People v. Edmonson, 408 Ill. App. 3d 880, 884, 946 N.E.2d 997, 1001

-88a

(2011). Leave to withdraw a plea of guilty is not granted as of right but only as required to
correct a manifest injustice under the facts of the particular case. People v. Pullen, 192 Ill. 2d 36,
39, 733 N.E.2d 1235, 1237 (2000). A trial court has discretion to permit a defendant to withdraw
his guilty plea, and that decision will not be reversed on appeal absent an abuse of discretion.

Wilson, 295 Ill. App. 3d at 234. The trial court’s decision will not be disturbed on appeal unless
“ ‘it appears that the plea of guilty was entered on a misapprehension of the facts or of the law
*** or where the accused has a defense worthy of consideration by a jury, or where the ends of
justice will be better served by submitting the case to a jury, the court should permit the
withdrawal of the plea of guilty and allow the accused to plead not guilty .’ ” People v. Davis,
145 Ill. 2d 240, 244, 582 N.E.2d 714, 716 (1991) (quoting People v. Morreale, 412 Ill. 528 531532, 107 N.E. 2d 721, 723 (1952)).
¶ 17
¶ 18

1. Ineffective Assistance of Counsel
Defendant argues this court should reverse the trial court’s ruling and remand for

further proceedings because defendant’s counsel at the time of his guilty plea was ineffective.
We disagree.
¶ 19

“The sixth amendment guarantees a criminal defendant the right to effective

assistance of trial counsel at all critical stages of the criminal proceedings, including the entry of
a guilty plea.” People v. Brown, 2017 IL 121681, ¶ 25, 102 N.E.3d 205. A defendant’s claim of
ineffective assistance of counsel is analyzed under the two-pronged test set forth in Strickland v.

Washington, 466 U.S. 668 (1984). Brown, 2017 IL 121681, ¶ 25. The Strickland standard also
applies to a claim that trial counsel was ineffective during the guilty-plea process. “To prevail on
a claim of ineffective assistance of counsel, a defendant must show both that counsel’s
performance was deficient and that the deficient performance prejudiced the defendant.” People

-99a

v. Petrenko, 237 Ill. 2d 490, 496, 931 N.E.2d 1198, 1203 (2010). To establish deficient
performance, the defendant must show his attorney’s performance fell below an objective
standard of reasonableness. People v. Evans, 209 Ill. 2d 194, 219, 808 N.E.2d 939, 953 (2004)
(citing Strickland, 466 U.S. at 687). An attorney’s conduct is deficient if the attorney failed to
ensure that the defendant’s guilty plea was entered voluntarily and intelligently. People v.

Rissley, 206 Ill. 2d 403, 457, 795 N.E. 2d 174, 204 (2003). Prejudice is established when a
reasonable probability exists that, but for counsel’s deficient performance, the result of the
proceeding would have been different. Evans, 209 Ill. 2d at 219-20 (citing Strickland, 466 U.S.
at 694). A defendant must satisfy both prongs, and the failure to satisfy either precludes a finding
of ineffective assistance of counsel. People v. Clendenin, 238 Ill. 2d 302, 317-18, 939 N.E.2d
310, 319 (2010).
¶ 20

In regard to the first Strickland prong, defendant argues his defense attorney was

deficient for falsely leading him to believe the State would dismiss one count of criminal sexual
assault if defendant entered an open guilty plea to the remaining count when no such plea
agreement existed, appearing at the plea hearing based on this information, and, after disclosing
the error to defendant, leading him to feel pressured to plead guilty at the impending hearing.
¶ 21

“ ‘Whether a plea of guilty is unintelligent and therefore vulnerable *** depends

as an initial matter, not on whether a court would retrospectively consider counsel’s advice to be
right or wrong, but whether that advice was within the range of competence demanded of
attorneys in criminal cases.’ ” People v. Correa, 108 Ill. 2d 541, 549, 485 N.E.2d 307, 310 (1985)
(quoting McMann v. Richardson, 397 U.S. 759, 770-71 (1970)). “ ‘Generally, for a plea to be
deemed voluntary and intelligent, a defendant must be fully aware of the direct consequences of
entering the plea.’ [Citation.]” People v. Presley, 2012 IL App (2d) 100617, ¶ 27, 969 N.E.2d

- 10 10a

952. If, in making the plea, the defendant reasonably relied on his attorney’s incompetent advice
or representations, “then it can be said that the defendant’s pleas were not voluntary; that is, there
was not a knowing and intelligent waiver of the fundamental rights which a plea of guilty
entails.” Correa, 108 Ill. 2d at 549. However, the voluntary nature of a plea is not destroyed
simply because it was made in reliance on “some erroneous advice by counsel ***.” Beasley,
2017 IL App (4th) 150291, ¶ 32. In some circumstances, comprehensive admonishments from
the trial court may cure the effects of “erroneous advice of counsel” by ensuring pleas are not
obtained by any threats, promises, or coercion. People v. Hall, 217 Ill. 2d 324, 338-39, 841
N.E.2d 913, 922 (2005). In order to successfully establish the deficient representation prong
under Strickland, the defendant must show the attorney’s conduct was objectively incompetent
and the attorney’s misconduct or misrepresentations were determinative and reasonably relied
upon in making the plea such that the plea was not voluntarily or intelligently made. See Correa,
108 Ill. 2d at 549; Morreale, 412 Ill. at 533.
¶ 22

In Hall, the defendant alleged his defense attorney provided ineffective assistance

by erroneously advising him he had no valid defense to the aggravated kidnapping charges
against him despite his claim he was unaware a child was in the car at the time he stole it. Hall,
217 Ill. 2d at 328-29, 334. Since aggravated kidnapping requires the defendant’s conduct to be
willful, the court found the advice of defendant’s counsel was clearly erroneous and objectively
unreasonable. Hall, 217 Ill. 2d at 335. Since the sole basis for the defendant’s plea was his
attorney’s erroneous advice, the attorney’s misinformation prevented the defendant’s guilty plea
from being entered voluntarily and intelligently, and the court found the defendant satisfied the
first prong of Strickland. Hall, 217 Ill. 2d at 341.

- 11 11a

¶ 23

In the case before us, defendant’s attorney provided an affidavit confirming a

miscommunication occurred regarding the exact terms of the plea before it was entered. The
affidavit states the attorney believed there was a plea offer for one count of criminal sexual
assault, which he communicated to defendant. Further, defendant’s attorney claimed he did not
realize the plea was to both counts until he arrived at the courthouse the morning of the plea
hearing and began going over the paperwork with his client. He informed defendant about the
miscommunication and the prosecutor’s actual offer and indicated he had a further conversation
with the ASA. According to the State’s affidavit, attached to its response to defendant’s motion
to withdraw his guilty plea, this conversation took place in the presence of both defendant and
his parents, a fact which is acknowledged in defendant’s motion to withdraw his plea. During
that conversation, the affiant ASA was asked by defendant directly whether he could plead to
one count of criminal sexual assault and was told no. Furthermore, while the motion to withdraw
his plea repeatedly refers to a conversation between defendant and his attorney regarding a plea
to criminal sexual abuse, the affidavit from defendant’s previous attorney does not mention he
informed defendant the plea was to one count of criminal sexual abuse. The attorney’s affidavit
says he “never informed the [d]efendant that he would have to register as a sex offender for the
rest of his life upon a plea or finding of guilt to Criminal Sexual Abuse.” However, this appears
to be inadvertent as the first page of the affidavit states he told defendant “that his offer was to
plead guilty to one count of Criminal Sexual Assault.” The State does not dispute defendant’s
attorney incorrectly advised him about the nature of the guilty plea. However, the State argues
defendant still voluntarily, without coercion, entered the guilty plea and knowingly decided to
“throw himself on the mercy of the court in a hope for milder punishment.” Morreale, 412 Ill. at
533. Defendant counters, contending the plea was not voluntary or intelligent because it was

- 12 12a

made under the pressure of the impending guilty plea with hastily-given advice. However,

Morreale is distinguishable from the present case.
¶ 24

In Morreale, the defendant sought to withdraw his guilty plea, asserting “he had

changed his plea only because [his attorney] and [his attorney’s associate] had advised him that it
would be the best course to follow and that he would get probation.” Morreale, 412 Ill. at 531.
The record showed on the day of the defendant’s scheduled trial the prosecutor urged an
associate of defendant’s counsel, who was only appearing to obtain a continuance, to get the
defendant to change his plea. The associate advised the defendant to change his plea, the
defendant expressed reluctance about changing his plea, and during hurried discussions with his
attorney, who was in trial in another courtroom, defendant’s attorney also told the defendant not
to “ ‘worry about anything; plead guilty and you will get probation.’ ” Morreale, 412 Ill. at 530.
Although the trial court fully and properly admonished the defendant concerning the potential
consequences of his guilty plea and the prosecution did not oppose probation, the trial court later
denied probation and imposed a sentence of 5 to 10 years’ incarceration. Morreale, 412 Ill. at
529-31. Under these circumstances, our supreme court found the hurried consultation with
defendant, his counsel who was actually in trial elsewhere, and a “youthful associate”
“engendere[d] confusion and misapprehension in [the defendant].” Morreale, 412 Ill. at 533.
Further, the pressuring of the associate by the prosecutor effectively denied defendant the right to
be represented by counsel of his own choosing, and the “haste and manner in which the guilty
plea arrangements were made” further contributed to the confusion and apprehension. Morreale,
412 Ill. at 533. Our supreme court also found the State’s lack of opposition to a probationary
sentence was significant because the defendant would not have realized the prosecutor’s
representations were not binding on the trial court. Morreale, 412 Ill. at 533. As a result, the trial

- 13 13a

court’s admonishments were found insufficient to overcome counsel’s erroneous advice.

Morreale, 412 Ill. at 533-34. Thus, the court found the defendant’s plea was not knowingly made
and determined the interests of justice supported allowing the defendant to withdraw his plea.

Morreale, 412 Ill. at 533-34.
¶ 25

Here, like the defendant in Morreale, defendant undoubtedly was surprised and

initially confused to learn the plea offer was not what he expected. It is equally true this all
needed to be addressed before the plea could proceed. However, this is where the similarities
end.
¶ 26

Unlike the defendant in Morreale, the manner in which the plea was reached did

not involve a hurried back-and-forth with defendant, the prosecutor, and some unsuspecting
associate of defendant’s attorney on the day the matter was scheduled for trial. Neither the
affidavit of defendant’s counsel, nor that of the prosecutor reflect hurried or pressured plea
discussions. The affidavits of defendant’s parents also make no reference to hurried or pressured
discussions other than a purported statement by the prosecutor. Notably absent from the
affidavits of defendant’s counsel and the ASA is any statement by the ASA where she
purportedly said she would “not drag the victim back and forth” to court and defendant’s options
were to plead to both counts or proceed to trial. Even that alleged statement does not indicate a
decision was required to be immediately forthcoming. It must be remembered, this matter was
not set for trial, nor does the record before us indicate it was in a posture for trial. Further, the
plea hearing had been scheduled by defendant’s counsel—not the State or the trial court. Under
these circumstances, had the plea not proceeded, it is most likely the matter would have been
continued for a trial date. What occurred was a discussion between defendant’s attorney,
defendant, his parents, and the prosecutor clarifying the terms of the State’s offer and

- 14 14a

defendant’s options. Defendant does not allege the prosecutor pressured defendant to plead
guilty, nor do any of the affidavits submitted by the defense explain the time frame during which
these discussions took place or contend there was inadequate time to discuss what transpired.
Defendant’s options once he was informed of the actual terms of the plea offer essentially
remained the same: he could still proceed to trial, as defendant’s counsel previously indicated
they were prepared to do; he could request a continuance, either seeking more time to consider
the plea or for further negotiations; or he could proceed to plead pursuant to the offer as
tendered. Unlike the defendant in Morreale, once the State’s position was clear, defendant had
the opportunity to discuss the matter with his attorney and his parents. Notably, unlike Morreale,
defendant does not allege his attorney promised what sentence he would receive or that he
experienced any actual pressure exerted by his attorney to plead guilty. He also does not say his
attorney or the prosecutor guaranteed a reduced sentence in exchange for pleading guilty.
Instead, the record reveals defendant even entered into the negotiations himself, asking the
prosecutor whether she would consider a plea to one count of criminal sexual assault, which she
declined. He then informed the prosecutor he was going to plead guilty, and “he hoped the Court
saw that he was taking responsibility.” It is obvious, by that point, defendant made his choice
and hoped by doing so he might receive a more favorable sentence. This is not the confused,
pressured, and uninformed defendant in Morreale.
¶ 27

It is also not unreasonable to conclude the thorough admonishments given to

defendant and the inquiry of defendant by the trial court dispelled any error in the attorney’s
initial misunderstanding of the plea or the manner in which the plea agreement was reached,
thereby ensuring the plea was voluntarily and intelligently made. There is no dispute, and the
record is clear, the trial court advised defendant, and reiterated several times, he was pleading to

- 15 15a

two counts of criminal sexual assault. In fact, the court asked defendant directly whether he
understood it was a plea to two counts, and, after reading count I, asked: “Is that one of the
charges you are pleading guilty to today?” To which defendant responded, “Yes, your Honor.”
After reading the second count, the court again inquired: “And is that the second charge you are
pleading guilty to today?” To which defendant again responded: “Yes.” Defendant makes no
claim the trial court’s admonishments, given pursuant to Rule 402 (Ill. S. Ct. R. 402 (eff. July1,
2012)) before his plea, were in any way misleading or incomplete. After providing defendant
with the proper admonishments, defendant said he understood the charges, the penalties, and his
rights, and he had no questions. He further acknowledged no one, including his attorney, had
forced, threatened, coerced, or “promised [him] anything about what’s going to happen in [his]
case to try to get [him] to plead guilty here today[.]” The factual basis was read in court, and
defendant reiterated he was pleading guilty to both counts. In addition, defendant signed the plea
agreement, which detailed an open plea to both counts and outlined how both counts were nonprobationable, mandatorily consecutive, and contained a mandatory supervised release date of
three years to life.
¶ 28

Defendant, however, maintains “accurate and complete admonishments do not

purge the taint of ineffective assistance of counsel” and the issue for this court is whether the
admonitions were sufficient to alleviate the prejudice from counsel’s deficient representation.
This presupposes counsel’s representation was deficient and misstates the issue, which is
whether his attorney’s misrepresentations were the determinative factor causing him to plead
guilty. The record shows they were not. It is plausible the miscommunication regarding the terms
of the plea got defendant to the courthouse and through the door, but it did not get him to plead
guilty. By the time defendant pleaded guilty, he knew the offer, as his attorney initially

- 16 16a

understood it, never existed. He could have continued the matter for trial, asked for a
continuance to consider the offer, continued negotiations, or set the matter for a plea on another
date and time. Defendant also knew pleading guilty did not necessarily guarantee him a
favorable sentence. While defendant says he felt pressured by some time constraints, neither his
attorney nor the prosecutor pressured him into entering the plea. In fact, he told the prosecutor,
after she rejected his proposal, he was pleading guilty and hoped the trial court saw he was
taking responsibility. Although evidence in the record reflects alleged miscommunication
regarding the terms of the plea before the trial court’s Rule 402 admonishments, any
miscommunication was cured both before and during defendant’s plea of guilty. The plea may
not have been what defendant wanted, but there is nothing in the record to indicate it was not
what he accepted after discussion with counsel, his parents, and even the prosecutor. Defendant’s
attorney may have been mistaken, but mistaken is not necessarily deficient. Any mistake was
corrected and cured by the admonishments and comments of the court, as reflected in
defendant’s plea. Accordingly, we find the court did not abuse its discretion in denying
defendant’s motion to withdraw his plea based on ineffective assistance of counsel.
¶ 29

A defendant must satisfy both prongs of the Strickland analysis, and the failure to

satisfy either precludes a finding of ineffective assistance of counsel. Clendenin, 238 Ill. 2d at
317-18. The failure of a defendant to establish either prong under an ineffective assistance of
counsel analysis is fatal to the claim. Strickland, 466 U.S. at 697. Because we find defendant
failed to establish the deficiency prong as required under Strickland, we do not need to analyze
whether defendant established prejudice.
¶ 30

2. Defense Worthy of Consideration

- 17 17a

¶ 31

Defendant argues this court should reverse the trial court’s ruling and remand for

further proceedings because he had a defense worthy of consideration at trial, namely, consent.
Specifically, defendant maintains the testimony of the victim during a subsequent trial for a
codefendant, though not recanted, was inconsistent with the factual basis provided by the State
and other previous statements made by the victim. We disagree.
¶ 32

As noted above, “ ‘where the accused has a defense worthy of consideration by a

jury, *** the court should permit the withdrawal of the plea of guilty and allow the accused to
plead not guilty .’ ” Davis, 145 Ill. 2d at 244 (quoting Morreale, 412 Ill. at 531-32). “[N]o Illinois
case has specifically interpreted what is meant by the general phrase ‘defense worthy of
consideration***.’ ” People v. Carlson, 179 Ill. App. 3d 1050, 1054, 535 N.E.2d 79, 81 (1989).
Establishing a worthy defense does not require the defendant to “prov[e] actual innocence.”

People v. Feldman, 409 Ill. App. 3d 1124, 1129, 948 N.E.2d 1094, 1100 (2011). Doubt of guilt
or actual innocence is a separate and distinct basis for allowing withdrawal of a guilty plea. See

Morreale, 412 Ill. at 531-32. Further, “[w]hile having a defense worthy of consideration may be
a significant element of a motion to withdraw a guilty plea, it is, standing alone, not a sufficient
element.” Carlson, 179 Ill. App. 3d at 1055. A rule providing otherwise “would totally
undermine the finality of guilty pleas” and “ any defendant dissatisfied with the sentence would
be in a position to ask that his plea be set aside for the reason that he had a defense worthy of
consideration.” Carlson, 179 Ill. App. 3d at 1055. The defendant bears the burden of
demonstrating sufficient grounds to allow withdrawal of a plea. People v. Kokoraleis, 193 Ill.
App. 3d 684, 691-92, 549 N.E.2d 1354, 1360 (1990).
¶ 33

In Carlson, the defendant argued she had a defense worthy of consideration

because the insanity defense had been available to her. Carlson, 179 Ill. App. 3d at 1053.

- 18 18a

However, the record established, prior to pleading guilty, the defendant’s attorney advised her of
the availability of the insanity defense and the likelihood of the success of the defense based on
the evidence against her and a jury’s likely perception of that evidence. Carlson, 179 Ill. App. 3d
at 1053. As a result, “the defendant fully understood the options available to her and voluntarily
chose to plead guilty ***.” Carlson, 179 Ill. App. 3d at 1054. Accordingly, since the defendant
had known about the defense and voluntarily chose to plead guilty anyway, the court found the
defendant was not entitled to withdraw her plea. Carlson, 179 Ill. App. 3d at 1054.
¶ 34

In People v. Dougherty, 394 Ill. App. 3d 134, 915 N.E.2d 442 (2009), the

defendant sought to withdraw his guilty plea to a misdemeanor domestic battery against his
girlfriend. His claimed basis for withdrawing his plea is similar to that asserted by defendant
here. The defendant in Dougherty claimed both he and defense counsel believed the State did not
have a strong case against him, the victim’s story was false, that someone else committed the
crime, and other witnesses were now available to testify. Dougherty, 394 Ill. App. 3d at 140. The
appellate court noted most, if not all of the evidence listed in his motion, was available to him at
the time of his plea. Dougherty, 394 Ill. App. 3d at 140. The same is true here. The defendant in

Dougherty also failed to present any other witnesses or affidavits to indicate there was favorable
testimony supporting a reasonable doubt as to his guilt. Dougherty, 394 Ill. App. 3d at 140. Here,
defendant relies solely on the victim’s testimony in a separate trial involving a different
defendant. He contends there were inconsistencies in the victim’s testimony compared with the
factual basis provided by the State and her previous statements to police. The court in Dougherty
also noted the defendant entered a written plea agreement in the case and the defendant “failed to
present any objective evidence that he has a meritorious defense or that the ends of justice
require a trial.” Dougherty, 394 Ill. App. 3d at 140. Here, defendant also entered into a written

- 19 19a

plea agreement, and the alleged inconsistencies of the victim’s testimony are the only other
evidence offered.
¶ 35

Defendant states he has a consent defense worthy of consideration based on

testimony the victim gave at a later trial of one of his codefendants. He does not allege he was
unaware consent was available as a defense in his case, nor does he say his attorney failed to
advise him of the possible consequences surrounding the use of such a defense. Similar to

Dougherty and Carlson, defendant had a potential defense available to him before entering into a
written plea agreement with the State. This suggests defendant knew his options and was not
misled about the law regarding a potential defense but chose to proceed with a guilty plea. To
then allow defendant to withdraw his plea for a defense he declined to take advantage of could
reasonably be viewed as unjustly undermining the finality of the guilty plea.
¶ 36

Both parties agree the defendant was properly admonished by the trial court

pursuant to Rule 402 (Ill. S. Ct. R. 402 (eff. July 1, 2012)) before entering into his guilty plea.
After admonishing defendant, the court found defendant’s guilty plea to be knowing and
voluntary. Guilty pleas that are knowing and voluntary are judicial admissions. See People v.

Peterson, 74 Ill. 2d 478, 488, 384 N.E.2d 348, 353 (1978) (“[T]he admissibility of a confession is
not governed by the rules applicable to judicial admissions of guilt, such as pleas of guilty[.]”);
see also Feldman, 409 Ill. App. 3d at 1128 (holding that the defendant was not allowed to
withdraw his guilty plea to possession of a controlled substance when he had a valid prescription
at the time of the plea, the plea was a judicial admission which operated as a waiver of proof of a
factual issue, and defendant was estopped from contesting those facts). “A judicial admission is a
deliberate, clear, unequivocal statement of a party, about a concrete fact, within the party’s
particular knowledge.” Eidson v. Audrey’s C.T.L., Inc., 251 Ill. App. 3d 193, 195, 621 N.E.2d

- 20 20a

921, 923 (1993). A judicial admission is binding upon the party making it and may not be
controverted by other evidence. Feldman, 409 Ill. App. 3d at 1128. A plea of guilty constitutes
an admission of every fact alleged in an indictment as long as each fact admitted is an ingredient
of the offense charged . People v. Henderson, 95 Ill. App. 3d 291, 296, 419 N.E.2d 1262, 1265
(1981). “A defendant may, by plea of guilty or confession, waive the production of all evidence
of his guilt.” People v. Green, 17 Ill. 2d 35, 42, 160 N.E.2d 814, 818 (1959).
¶ 37

In the matter before us, defendant entered into a binding judicial admission,

thereby admitting every fact alleged in both indictments which may not be controverted by other
evidence. At the time of his plea, defendant was aware of his right to demand a trial to test the
State’s evidence and attack the credibility of witnesses during that trial. The record shows he had
no misapprehensions about the law or facts regarding a defense of consent. Instead, he was
willing to plead guilty, enter into a binding judicial admission of guilt, and leave the potential
evidence unchallenged and the credibility of State witnesses intact. Therefore, the trial court did
not abuse its discretion in denying defendant’s motion to withdraw his guilty plea.
¶ 38
¶ 39

B. Excessive Sentence
Defendant next argues that the trial court abused its discretion by sentencing him

to seven years for each count of criminal sexual assault to be served consecutively. We disagree.
¶ 40

The Illinois Constitution mandates “[a]ll penalties shall be determined both

according to the seriousness of the offense and with the objective of restoring the offender to
useful citizenship.” Ill. Const. 1970, art. I, § 11. “ ‘In determining an appropriate sentence, a
defendant’s history, character, and rehabilitative potential, along with the seriousness of the
offense, the need to protect society, and the need for deterrence and punishment, must be equally
weighed.’ ” People v. Hestand, 362 Ill. App. 3d 272, 281, 838 N.E.2d 318, 326 (2005) (quoting

- 21 21a

People v. Hernandez, 319 Ill. App. 3d 520, 529, 745 N.E.2d 673, 681 (2001)). However, “the
seriousness of an offense is considered the most important factor in determining a sentence.”

People v. Jackson, 2014 IL App (1st) 123258, ¶ 53, 23 N.E.3d 430.
¶ 41

With excessive-sentence claims, this court has explained appellate review of a

defendant’s sentence as follows:
“A trial court’s sentencing determination must be based on
the particular circumstances of each case, including factors such as
the defendant’s credibility, demeanor, general moral character,
mentality, social environment, habits, and age. [Citations.]
Generally, the trial court is in a better position than a court of
review to determine an appropriate sentence based upon the
particular facts and circumstances of each individual case.
[Citation.] Thus, the trial court is the proper forum for the
determination of a defendant’s sentence, and the trial court’s
decisions in regard to sentencing are entitled to great deference and
weight. [Citation.] Absent an abuse of discretion by the trial court,
a sentence may not be altered upon review [Citation.].” (Internal
quotation marks omitted.) People v. Price, 2011 IL App (4th)
100311, ¶ 36, 958 N.E.2d 341 (quoting People v. Hensley, 354 Ill.
App. 3d 224, 234-35, 819 N.E.2d 1274, 1284 (2004).
An abuse of discretion will not be found unless the court’s sentencing decision is “arbitrary,
fanciful, unreasonable, or where no reasonable person would take the view adopted by the trial
court.” People v. Etherton, 2017 IL App (5th) 140427, ¶ 26, 82 N.E.3d 693. Also, an abuse of

- 22 22a

discretion will be found “where the sentence is ‘greatly at variance with the spirit and purpose of
the law, or manifestly disproportionate to the nature of the offense.’ ” People v. Alexander, 239
Ill. 2d 205, 212, 940 N.E.2d 1062, 1066 (2010) (quoting People v. Stacey, 193 Ill. 2d 203, 210,
737 N.E.2d 626, 629 (2000)).
¶ 42

In the case before us, defendant pleaded guilty to two counts of criminal sexual

assault by the use or threat of force, both counts being Class 1 felonies. See 720 ILCS 5/111.20(a)(1) (West 2014). A person convicted of a Class 1 felony, other than for second degree
murder, is subject to a sentencing range of 4 to 15 years in the Illinois Department of
Corrections. 730 ILCS 5/5-4.5-30(a) (West 2014). A person convicted of more than one count of
criminal sexual assault must serve those sentences consecutively. 730 ILCS 5/5-8-4(d)(2) (West
2014). When a sentence falls within the statutory range of sentences possible for a particular
offense, it is presumed reasonable. People v. Moore, 41 Ill. App. 3d 3, 4, 353 N.E.2d 191, 192
(1976). In order to consider it an abuse of discretion, we must find it to be at odds with the
purpose and spirit of the law or manifestly disproportionate to the nature of the offense. People v.

Weiser, 2013 IL App (5th) 120055, ¶ 33, 993 N.E.2d 614. A defendant’s rehabilitative potential
and other mitigating factors are not entitled to greater weight than the seriousness of the offense.
When mitigating factors are presented to a court, the reviewing court should presume that the
circuit court considered them. People v. Pippen, 324 Ill. App. 3d 649, 652, 756 N.E.2d 474, 477
(2001). As the trial court’s seven-year sentence for each count falls within the relevant
sentencing range, we will not disturb the sentence absent an abuse of discretion.
¶ 43

At the sentencing hearing, the trial court stated it considered the presentence

report, the statutory factors in aggravation and mitigation, arguments of counsel, and defendant’s
statement in allocution. The court recognized defendant had some criminal history, but noted it

- 23 23a

was “not significant.” The court stated it was going to “impose a sentence in this case that
reflect[ed] the seriousness of [defendant’s] crime, but also reflect[ed] the mitigation ***
presented.” The court made a record indicating there was a pause before it began its comments
because it was “considering very strongly what is appropriate here.”
¶ 44

The seriousness of the crime is the most important factor for the court to consider.

People v. Busse, 2016 IL App (1st) 142941, ¶ 28, 69 N.E.3d 425. The offense committed by the
defendant consisted of the vaginal and oral penetration of a 17-year-old girl by the use or threat
of force. The factual basis described how defendant and two others, holding down the victim and
refusing to allow her to get up, took turns having vaginal intercourse with her and forcing her to
perform oral sex on them. The court also heard from the victim and her mother about how
defendant’s actions have negatively and continuously affected the victim and her family. The
record leaves no doubt the court considered the seriousness of defendant’s actions. Finding the
offense was of “such a serious nature,” the court remarked imposing a sentence in excess of the
seven-year recommendation on each count would be appropriate in this case, but it considered
the mitigation presented to “essentially temper what *** would probably be the appropriate
sentence” and concluded a seven-year sentence on each count was appropriate.
¶ 45

Defendant, however, also argues his seven-year sentence for each count is

excessive considering defendant’s rehabilitative potential. Defendant states judicial action from
this court is required to impose a less harsh sentence because the trial court imposed a sentence
“without regard to the constitutional and statutory mandate that sentences are to be rehabilitative,
not just retributive.” However, a defendant’s rehabilitative potential and other mitigating factors
are not entitled to greater weight than the seriousness of the offense. Pippen, 324 Ill. App. 3d at
652.

- 24 24a

¶ 46

Here, the record reflects the trial court weighed the mitigating factors, including

defendant’s rehabilitative potential, and the seriousness of the offense before sentencing
defendant within the statutory sentencing range. The court even indicated, but for the mitigation
presented on behalf of defendant, a more severe sentence would be appropriate based on the
nature and circumstances of the case. The fact that defendant did not like the outcome after the
court considered all the evidence before it does not warrant a reduction of defendant’s sentence
or another hearing. His sentence was within the statutory range of sentences possible and there is
nothing in the record to support the assertion the court’s decision was fanciful, arbitrary,
unreasonable, or manifestly disproportionate to the nature of the offense.
¶ 47

Accordingly, we find the seven-year sentence for each count imposed on

defendant by the court was not “ ‘greatly at variance with the spirit and purpose of the law,’ ” nor
was it “ ‘manifestly disproportionate to the nature of the offense.’ ” Alexander, 239 Ill. 2d at 212
(quoting Stacey, 193 Ill. 2d at 210). Thus, the court did not abuse its discretion.
¶ 48

III. CONCLUSION

¶ 49

For the reasons stated, we affirm the trial court’s judgment.

¶ 50

Affirmed.

- 25 25a

26a

27a

28a

29a

30a

31a

32a

33a

34a

35a

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

March 25, 2020
In re:

People State of Illinois, respondent, v. Josiah Daniel Porter,
petitioner. Leave to appeal, Appellate Court, Fourth District.
125618

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 04/29/2020.

Very truly yours,

Clerk of the Supreme Court

36a

37a

38a

STATE OF ILLINOIS
CLERK OF THE COURT
(217) 782-2586

APPELLATE COURT
FOURTH DISTRICT
201 W. MONROE STREET
SPRINGFIELD, IL 62704

RESEARCH DIRECTOR
(217) 782-3528

December 3, 2019
RE: People v. Porter, Josiah Daniel
General No.: 4-17-0546
McLean County
Case No.: 15CF103
The Court today denied the petition for rehearing filed in the above entitled cause. The mandate
of this Court will issue 35 days from today unless a petition for leave to appeal is filed in the
Illinois Supreme Court.
If the decision is an opinion, it is hereby released today for publication.

Clerk of the Appellate Court
c:

Office of the State Appellate Defender, Fourth District
State's Attorney's Appellate Prosecutor, Fourth District

39a

Rule 402. Pleas of Guilty or Stipulations Sufficient to Convict, IL R S CT Rule 402

West's Smith-Hurd Illinois Compiled Statutes Annotated
Court Rules
Illinois Supreme Court Rules (Refs & Annos)
Article IV. Rules on Criminal Proceedings in the Trial Court
Part A. Waivers and Pleas
ILCS S. Ct. Rule 402
Formerly cited as IL ST CH 110A ¶ 402; IL ST S. Ct. Rule 402
Rule 402. Pleas of Guilty or Stipulations Sufficient to Convict
Currentness
In hearings on pleas of guilty, or in any case in which the defense offers to stipulate that the evidence is sufficient to convict,
there must be substantial compliance with the following:
(a) Admonitions to Defendant. The court shall not accept a plea of guilty or a stipulation that the evidence is sufficient to
convict without first, by addressing the defendant personally in open court, informing him or her of and determining that he
or she understands the following:
(1) the nature of the charge;
(2) the minimum and maximum sentence prescribed by law, including, when applicable, the penalty to which the defendant
may be subjected because of prior convictions or consecutive sentences;
(3) that the defendant has the right to plead not guilty, or to persist in that plea if it has already been made, or to plead guilty; and
(4) that if he or she pleads guilty there will not be a trial of any kind, so that by pleading guilty he or she waives the right
to a trial by jury and the right to be confronted with the witnesses against him or her; or that by stipulating the evidence is
sufficient to convict, he or she waives the right to a trial by jury and the right to be confronted with any witnesses against
him or her who have not testified.
(b) Determining Whether the Plea is Voluntary. The court shall not accept a plea of guilty without first determining that the
plea is voluntary. If the tendered plea is the result of a plea agreement, the agreement shall be stated in open court. The court, by
questioning the defendant personally in open court, shall confirm the terms of the plea agreement, or that there is no agreement,
and shall determine whether any force or threats or any promises, apart from a plea agreement, were used to obtain the plea.
(c) Determining Factual Basis for Plea. The court shall not enter final judgment on a plea of guilty without first determining
that there is a factual basis for the plea.

40a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Rule 402. Pleas of Guilty or Stipulations Sufficient to Convict, IL R S CT Rule 402

(d) Plea Discussions and Agreements. When there is a plea discussion or plea agreement, the following provisions, in addition
to the preceding paragraph of this rule, shall apply:
(1) The trial judge shall not initiate plea discussions. Upon request by the defendant and with the agreement of the prosecutor,
the trial judge may participate in plea discussions. Prior to participating in the plea discussions, the trial judge shall admonish
the defendant and inquire as to the defendant's understanding of the following:
That the defendant's attorney has requested that the trial judge participate in the conference to determine whether or not the
charge(s) which is/are pending against the defendant can be resolved by a plea of guilty;
That during the course of the conference the prosecutor will be present and advise the judge of the facts of the case as contained
in the police reports or conversations with witnesses, that the defendant's attorney will also be present and will advise the
judge of any information the defendant may have concerning the circumstances which led to the defendant's arrest in the case.
That without the conference, the judge would not learn about this information unless the case proceeded to trial.
That the judge will also learn whether the defendant has a prior criminal history, his or her driving record, whether the
defendant has any alcohol or drug problem, the defendant's work history, family situation, and other things which would bear
on what, if any punishment should be imposed upon the defendant as a result of his or her plea of guilty to one or more
of these charges.
That these are things that the judge would not learn about unless the case went to trial and the defendant was found guilty.
That at the end of the conference, the judge may make a recommendation as to what an appropriate sentence would be.
That the defendant or the prosecutor is free to accept or reject the judge's recommendation. However, if the defendant rejects
the judge's recommendation and he or she wishes to have a trial on the charges, the defendant may not obtain another judge
solely on the basis that the judge participated in the conference and is aware of the facts and circumstances surrounding the
incident as well as the defendant's background. This means that the defendant will be waiving his or her right to request a
substitution of judge based upon the judge's knowledge of the case.
That knowing all of these things the defendant still wishes that the judge participate in this conference.
(2) If a tentative plea agreement has been reached by the parties which contemplates entry of a plea of guilty in the expectation
that a specified sentence will be imposed or that other charges before the court will be dismissed, the trial judge may permit,
upon request of the parties, the disclosure to him or her of the tentative agreement and the reasons therefor in advance of the
tender of the plea. At the same time the trial judge may also receive, with the consent of the defendant, evidence in aggravation
or mitigation. The judge may then indicate to the parties whether he or she will concur in the proposed disposition; and if
the judge has not yet received evidence in aggravation or mitigation, he or she may indicate that his or her concurrence is
conditional on that evidence being consistent with the representations made. If the judge has indicated his or her concurrence
or conditional concurrence, the judge shall so state in open court at the time the agreement is stated as required by paragraph (b)
of this rule. If the defendant thereupon pleads guilty, but the trial judge later withdraws his or her concurrence or conditional
concurrence, the judge shall so advise the parties and then call upon the defendant either to affirm or to withdraw his or her
plea of guilty. If the defendant thereupon withdraws his or her plea, the trial judge shall recuse himself or herself.

41a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Rule 402. Pleas of Guilty or Stipulations Sufficient to Convict, IL R S CT Rule 402

(3) If the parties have not sought or the trial judge has declined to give his or her concurrence or conditional concurrence
to a plea agreement, the judge shall inform the defendant in open court at the time the agreement is stated as required by
paragraph (b) of this rule that the court is not bound by the plea agreement, and that if the defendant persists in his or her
plea the disposition may be different from that contemplated by the plea agreement.
(e) Transcript. In cases in which the defendant is charged with a crime punishable by imprisonment in the penitentiary, the
proceedings required by this rule to be in open court shall be taken verbatim, and upon order of the trial court transcribed, filed,
and made a part of the common law record.
(f) Plea Discussions, Plea Agreements, Pleas of Guilty Inadmissible Under Certain Circumstances. If a plea discussion
does not result in a plea of guilty, or if a plea of guilty is not accepted or is withdrawn, or if judgment on a plea of guilty
is reversed on direct or collateral review, neither the plea discussion nor any resulting agreement, plea, or judgment shall be
admissible against the defendant in any criminal proceeding.
Credits
Adopted June 26, 1970, eff. Sept. 1, 1970. Amended eff. Sept. 17, 1970; Jan. 5, 1981, eff. Feb. 1, 1981; May 20, 1997, eff.
July 1, 1997; April 26, 2012, eff. July 1, 2012.
Formerly Ill.Rev.Stat.1991, ch. 110A, ¶ 402.
I.L.C.S. S. Ct. Rule 402, IL R S CT Rule 402
Current with amendments received through 4/1/20
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

42a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

43a

44a

45a

46a

47a

48a

49a

50a

51a

52a

53a

54a

55a

56a

57a

58a

